U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States, ex rel. Laurence Schneider v. JPMorgan Chase Bank,
National Association, et al., No. 19-678
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 20,
2019, and placed on the docket on November 26, 2019. The government’s response is now due,
after one extension, on January 27, 2020. We respectfully request, under Rule 30.4 of the Rules
of this Court, a further extension of time to and including March 4, 2020, within which to file a
response. This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0678
UNITED STATES, EX REL. LAURENCE SCHNEIDER
JPMORGAN CHAE BANK, NATIONAL
ASSOCIATION, ET AL.

ROBERTO LUIGI DI MARCO
FOSTER, WALKER & DI MARCO, P.C.
350 MAIN STREET,
3RD FL
MALDEN , MA 02148
781-3223700
RDIMARCO@FWD-LAW.COM
MARK W. MOSIER
COVINGTON & BURLING, LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-5435
MMOSIER@COV.COM

